No. 20-6802
IN THE
SUPREME COURT OF THE UNITED STATES
NOEL JONES,
v.

Petitioner,

UNITED STATES OF AMERICA,
Respondent.
CERTIFICATE OF WORD COUNT
Pursuant to Rule 33.1(h) of the Rules of this Court, I certify that the
accompanying Reply Brief of Petitioner Noel Jones contains 1,998 words, excluding
the parts of the document that are exempted by Rule 33.1(d). This certificate was
prepared in reliance on the word-count function of the word-processing system
(Microsoft Word) used to prepare the document. I declare under penalty of perjury
that the foregoing is true and correct.
Respectfully submitted this 11th day of May, 2021.
/s/ Samantha Kuhn
SAMANTHA J. KUHN
Assistant Federal Public Defender
Counsel of Record
Office of the Federal Public Defender
500 Poydras Street, Suite 318
Hale Boggs Federal Building
New Orleans, Louisiana 70130
(504) 589-7930
samantha_kuhn@fd.org
Counsel for Petitioner

